                            CLOSEOUT FOR M96020004


On February   a  1996, a message was posted to an electronic bulletin board that announced
                                                                                e subject and     .


        chairman,  had  defamed   her in a memo  to Department  staff issued
                                                                                Department
                                                                             after
                                                                                            w
                                                                                  The subject's

                                                                                   he had fired
  -
her. The former technician alleged that the subject had plagiarized her research data in a
published research article. OIG found that the subject had been a recipient of NSF support
since 1973 and considered it possible that the alleged misconduct might have occurred under
ah NSF award. OIG could find no information in the bulletin board message about whether
o! how the technician's allegation of misconduct in science had been resolved.
  )I
hi response to OIG's request for information, the subject said that his technician had been
fiked because she repeatedly refused to comply with a Department policy about the use of
research equipment. She subsequently made an allegation that a discovery she had made (the
data allegedly plagiarized was ublished as figure 1 in a paper1 authored by the subject and
his graduate student. )                 She was not credited with the discovery nor did she
rbceive authorship on the paper. The subject said that the university had formed two separate
inquiry committees and both had concluded that the allegation did not have substance. One of
9    committees was formed to examine the allegation against the student and the second,
formed under the university's Policy on Ethics in Research, examined the same allegation
against the student, the subject, and a member of the student's dissertation committee. The
subject said the committees concluded that dated photographs taken by the technician and by
the student showed that they had independently and contemporaneously made the discovery
shown in the figure. The subject said that the research discussed in the paper .was not
2Lpported by NSF funds.
 I
OIG obtained a copy of the paper and found that the technician was acknowledged for
"technical assistance and expert advice." Public Health Service and private foundation funds
supported the research. No NSF funds were acknowledged. The University Counsel
confirmed the information the subject provided to OIG and also furnished a copy of the report
6y the Ethics in Research inquiry committee. The committee concluded that the technician
 I1
and
 I/
      student had made independent and overlapping discoveries. The subject had said that
none of the technician's data was used in the paper and her contributions warranted an
acknowledgment, not authorship. The committee concluded that none of the three subjects
y a s "guilty of theft of scientific data.':




                                      Page 1 of 2                            M96-04
                                     -
                             CLOSEOUT FOR M96020004

OIG concluded there was evidence that there was no substance to thd technician's allegation.
OIG also concluded that since no NSF funds were used on this project, the allegation, even if
it were determined to have substance, was not within NSF jurisdiction.
 I
This inquiry is closed and no further action will be taken in this case.
  I1
cc': Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                       Page 2 of 2
